TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Some Concerns Remain About the Overall
                  Confidence That Can Be Placed in Internal
                    Revenue Service Tax Gap Projections



                                             April 2006

                              Reference Number: 2006-50-077




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  April 21, 2006


 MEMORANDUM FOR DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Some Concerns Remain About the Overall
                                Confidence That Can Be Placed in Internal Revenue Service Tax Gap
                                Projections (Project # 200650001)

 This report presents the results of our review of whether the Internal Revenue Service’s (IRS)
 compliance efforts and strategies will enable it to achieve a 90 percent Voluntary Compliance
 Rate (VCR) by 2010.

 Synopsis
 In April 2004, the ranking member of the Senate Finance Committee, Senator Max Baucus,
 called for 90 percent voluntary tax compliance by 2010. Senator Baucus stated, in part, that
 “Today, I’m calling on the IRS to achieve a 90 percent voluntary compliance rate by the end of
 the decade, which would raise at least an additional $100 billion each year without raising
 taxes.”1 Perhaps the greatest challenge facing the IRS is finding ways to improve the VCR.
 Using different terms, Senator Baucus challenged the IRS to reduce what is commonly known as
 the tax gap. The IRS defines the gross tax gap as the difference between the estimated amount
 taxpayers owe and the amount they voluntarily and timely pay for a tax year. In February 2006,
 the IRS estimated the gross tax gap at $345 billion for Tax Year 2001.
 To determine whether the IRS can achieve the VCR called for by Senator Baucus, we first
 evaluated the reliability of the IRS developed tax gap figures. We concluded the IRS still does
 not have sufficient information to completely and accurately assess the overall tax gap and
 voluntary compliance. The IRS has significant challenges in both obtaining complete and timely

 1
     United States Senate Committee on Finance News Release, April 13, 2004
                   Some Concerns Remain About the Overall Confidence That Can
                    Be Placed in Internal Revenue Service Tax Gap Projections



data and developing the methods for interpreting the data. However, it is important to tax
administration and tax policy decision makers that an estimate be developed that is within
tolerable parameters. Otherwise, inappropriate decisions can be made on how to address the tax
gap. If one assumes that, in Tax Year 2010 the total tax liability is the same as it was in Tax
Year 2001, noncompliant taxpayers would have to timely and voluntarily pay an additional
$134 billion to achieve the Senator Baucus challenge to reach a 90 percent VCR by 2010.

Reliability of the Internal Revenue Service Developed Tax Gap Figure
Our analysis focused on whether there was sufficient, complete, and accurate information to
determine whether the composite tax gap projections are reliable. We concluded that, despite the
significant efforts undertaken in conducting the individual taxpayer National Research Program
(NRP) for underreporting, the IRS still does not have sufficient information to completely and
accurately assess the overall tax gap and the VCR. Our primary concerns are described in the
following areas of nonfiling, reporting compliance, and payments collected.
Nonfiling
In the pre-NRP tax gap map,2 the IRS estimated the nonfiling gap to be $30.1 billion, which was
comprised of $28.1 billion for individual income taxes and $2 billion for estate taxes. In
February 2006, this estimate was updated to $25 billion for individuals. Supplementary data
suggest that substantial amounts are not included in the estimates provided in the tax gap map
projections. The maps described the nonfiling estimate as reasonable despite the missing
segments of corporate income, employment, and excise taxes. These facts suggest the nonfiler
estimate is incomplete and likely inaccurate.3
Reporting Compliance
The tax gap attributed to underreporting is by far the largest identified portion of the tax gap at
an estimated $285 billion. Yet, this estimate may not be complete since there are at least four
areas that suggest substantial amounts are not included in the tax gap map projections.
    •   The effect of the current NRP Subchapter S corporation study4 on individual compliance
        could have a substantial impact on the individual taxpayer segment, as well as the
        employment tax segment.




2
  The tax gap map is an IRS developed chart that graphically depicts the tax gap along with its components and their
relative sizes.
3
  There are no definite plans to update the estate tax segment or to estimate the corporate, employment, and excise
tax nonfiler segment.
4
  This study is expected to take 2 years to 3 years to complete from its inception in October 2005.
                                                                                                                   2
                   Some Concerns Remain About the Overall Confidence That Can
                    Be Placed in Internal Revenue Service Tax Gap Projections



    •   The $5 billion estimate for small corporations and the $25 billion estimate for large
        corporations date back to the 1980s and have a weak certainty status according to the
        IRS.
    •   The estimate for estate taxes was not updated during the current NRP, and no estimate
        has been made for excise taxes.
    •   The dated estimate for the Federal Insurance Contributions Act taxes and unemployment
        taxes are considered weak by the IRS.
Payments Collected
The payment information used to arrive at a net tax gap figure is shown as $55 billion in
recoveries or enforced collections and other late payments.5 This figure does not represent an
actual amount but is an estimate based on formulas devised from historical analyses. However,
the actual basis of these formulas seems to be very limited, as well as dated, since IRS officials
stated they were developed “quite some time ago.” Thus, these formulas most likely do not take
into account changes in the IRS’ ability to collect revenue. Furthermore, these collections have
two basic parts: voluntary payments received by the IRS after the due date and payments
received by the IRS as a result of some type of IRS intervention. The IRS does not currently
correlate either type of payment to the applicable tax year and thus does not determine actual
collections.

Comparing Tax Gap Estimates to Independent Observations Presents Difficult
Challenges
In an effort to determine whether the tax gap projections developed by the IRS coincide with
estimates developed by independent sources, we attempted to identify other estimates from
independent sources. Although some outside studies exist, none provide sufficient information
to allow close comparisons. However, one possible source of comparison is the annual Bureau
of Economic Analysis estimate of the difference between its personal income figures and the
IRS’ measure of Adjusted Gross Income to derive what is called an Adjusted Gross Income Gap.
IRS Office of Research officials suggested this is a narrow definition of tax noncompliance
based, in part, on IRS estimates. For Tax Year 2001, the Bureau of Economic Analysis reported
an Adjusted Gross Income Gap of $834.4 billion.6
The private sector has also developed some estimates of the tax gap. For example, in
January 2005, financial analysts calculated the number of illegal immigrants in the United States

5
  According to one IRS representative, these collections can take up to 10 years because of appeals and court
decisions.
6
  This number is an income gap rather than a tax gap. Thus, it would have to be multiplied by a tax rate to determine
the associated tax gap. Similarly, the $35 billion stated in the following paragraph could be significantly smaller,
depending on whether some of these workers have actual filing obligations.
                                                                                                                   3
                     Some Concerns Remain About the Overall Confidence That Can
                      Be Placed in Internal Revenue Service Tax Gap Projections



at more than double the United States Census Bureau’s estimated 9 million. These
undocumented workers may hold as many as 15 million jobs, with perhaps 5 million collecting
untaxed cash wages, costing the Federal Government an estimated $35 billion yearly.7

Learning From Previous Attempts to Reduce the Tax Gap and Increase Voluntary
Compliance
In 1993, in concert with the Department of the Treasury and the Office of Management and
Budget, the IRS formed a task group that performed an extensive review of the tax gap. The
resulting report addressed major areas of the tax gap and provided recommendations that
addressed multiple approaches to closing the tax gap. The recommendation that would have had
the most impact included various legislative changes.
Conclusion
The IRS’ ability to achieve 90 percent voluntary compliance by 2010 is a determination that
cannot be made with the information currently available. Regardless of whether a 90 percent
VCR can be achieved, the IRS faces formidable challenges in completely and accurately
estimating the tax gap and finding effective ways to increase voluntary compliance. Overall
strategies to decrease the tax gap, as well as major areas of noncompliance, were identified by
the IRS more than a decade ago. Improvements can be realized; however, sufficient resources
need to be provided to ensure tax administrators can effectively ensure compliance with the tax
laws.

Recommendations
The Commissioner should continue to conduct NRPs on a regular cycle for the major segments
of the tax gap. To augment the direct measurement approach, the IRS should devise indirect
measurement methods to assist in quantifying the tax gap. In addition, the Commissioner should
consider establishing a tax gap advisory panel that includes tax and economic experts to identify
ways to improve the methods to measure voluntary compliance.

Response
The IRS agreed with our first recommendation, subject to resource availability, and agreed with
our second recommendation. The IRS will conduct reporting compliance studies consistent with
resource constraints, with a goal of covering all major taxes and taxpayer groups. The IRS will
also explore incorporating indirect measurement methods where these can improve the precision


7
    Bear Stearns, The Underground Labor Force Is Rising To The Surface.


                                                                                                  4
                 Some Concerns Remain About the Overall Confidence That Can
                  Be Placed in Internal Revenue Service Tax Gap Projections



of the resulting estimates. In addition, the IRS will look into establishing an advisory panel.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Director (Inspections and Evaluations), at (215) 516-2341.




                                                                                                  5
                      Some Concerns Remain About the Overall Confidence That Can
                        Be Placed in Internal Revenue Service Tax Gap Projections




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Reliability of Tax Gap Projections Are Affected by the Age,
          Completeness, and Accuracy of the Data .....................................................Page 3
          Comparing Tax Gap Estimates to Independent Observations Presents
          Difficult Challenges ......................................................................................Page 10
          The Range of Additional Collections That Would Be Required
          to Achieve Targeted Voluntary Compliance Goals ......................................Page 11
          The Barriers Caused by Budget and Taxpayer Burden Concerns
          Hamper Compliance Research......................................................................Page 12
          Learning From Previous Attempts to Reduce the Tax Gap and Increase
          Voluntary Compliance .................................................................................Page 13
                    Recommendations 1 and 2: ..................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Survey Results .....................................................................Page 19
          Appendix V – Management’s Response to the Draft Report .......................Page 21
                Some Concerns Remain About the Overall Confidence That Can
                  Be Placed in Internal Revenue Service Tax Gap Projections




                                       Background

The Federal income tax operates on a self-assessment basis. In general, taxpayers are
responsible for determining their own tax liabilities. The success of the self-assessment system
depends on the willingness of taxpayers to file tax returns when required, accurately report their
tax liabilities, and timely pay their taxes.
The Internal Revenue Code system of self-assessment places three basic obligations on
taxpayers. Generally, taxpayers are required to: (1) file annual tax returns, on which they
(2) report the correct amount of tax that they owe, and (3) pay their tax on a timely pay-as-you-
go basis. Tax noncompliance can therefore be categorized into three corresponding categories:
nonfiling, underreporting, and underpayment. The total dollar value of noncompliance (for a
given tax year) is called the gross tax gap. This is the estimated amount of tax that is owed but is
not paid voluntarily and timely.
The three components of the tax gap are defined as follows:
•   The nonfiling gap is the tax that is owed but is not paid voluntarily and timely by those who
    do not file required returns by their due date (April 15 for most individual taxpayers). In this
    definition, the nonfiling gap is net of any tax paid by or on behalf of these taxpayers before
    the due date of the return (e.g., through withholding).
•   The underreporting gap is the amount of tax that is owed, but not paid voluntarily and timely,
    by those who file their returns timely but do not fully report their tax obligations. This can
    be intentional or unintentional.
•   The underpayment gap is the amount of tax that is reported on timely filed returns but not
    paid voluntarily and timely.
Most of the gross tax gap is essentially an estimate by the Internal Revenue Service (IRS) and is
never assessed or paid. However, some of it is paid late either through IRS enforcement efforts
or through late payments that precede these efforts. The portion of the gross tax gap that is not
eventually collected is called the net tax gap. The percentage of tax dollars paid by taxpayers
who voluntarily and timely comply with their tax obligations is called the Voluntary Compliance
Rate (VCR). The most recent IRS estimates of these various tax gap figures are for Tax
Year (TY) 2001.




                                                                                             Page 1
                  Some Concerns Remain About the Overall Confidence That Can
                    Be Placed in Internal Revenue Service Tax Gap Projections



After a long period of inactivity,1 the IRS reinstated comprehensive compliance measurement
with the initiation of the National Research Program (NRP) for TY 2001 individual income tax
returns. Data from the NRP have been used to update the 2001 tax gap figures.
In April 2004, the ranking member of the Senate Finance Committee, Senator Max Baucus,
called for 90 percent voluntary tax compliance by 2010. Senator Baucus stated, in part, that
“Today, I’m calling on the IRS to achieve a 90 percent voluntary compliance rate by the end of
the decade, which would raise at least an additional $100 billion each year without raising
taxes.” 2 Perhaps the greatest challenge facing the IRS is finding ways to improve the VCR.
This evaluation was performed at the IRS Headquarters in Washington, D.C., in the Office of
Research, Analysis, and Statistics during the period October 2004 through September 2005.
Data in this report were subsequently updated to reflect revised information provided by the IRS
in February 2006. The evaluation was performed in accordance with Quality Standards for
Inspections. Detailed information on our evaluation objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1
  Prior to the National Research Program, tax gap estimates were based on the results of the IRS Taxpayer
Compliance Measurement Program, which was a systematic program of tax return examinations conducted to
facilitate the compilation of compliance data. The last Taxpayer Compliance Measurement Program processed
involved TY 1988 individual income tax returns.
2
  United States Senate Committee on Finance News Release, April 13, 2004.
                                                                                                      Page 2
                  Some Concerns Remain About the Overall Confidence That Can
                    Be Placed in Internal Revenue Service Tax Gap Projections




                                     Results of Review

There is a critical issue the IRS needs to address before determining whether 90 percent
voluntary compliance can be achieved. The IRS needs to ensure its estimates of the tax gap and
the VCR are substantially complete and accurate.
Based upon the best information the IRS had available as of February 2006, the gross tax gap for
TY 2001 was approximately $345 billion and the VCR was approximately 83.7 percent.
Assuming, despite evidence to the contrary, the current IRS tax gap and VCR are complete and
accurate, the compliance target set by Senator Baucus would present major challenges to tax
administration. For example, if one assumes that, in TY 2010 the total tax liability is the same as
it was in TY 2001, to reach a level of 90 percent voluntary compliance, noncompliant taxpayers
would have to timely and voluntarily pay an additional $134 billion.3
The specific challenges confronting the IRS are discussed in the remainder of this report. Our
analysis focused on whether there was sufficient, complete, and accurate information to
determine whether the composite tax gap projections are reliable. Our purpose was not to be
critical of the efforts the IRS took in reestablishing compliance measurement. On the contrary,
we commend the IRS for restoring these critical measurements and for designing them to be
much less burdensome to taxpayers than previous efforts. Our intent was to identify what the
measurements included and excluded, what confidence can be ascribed to them, and what areas
could be addressed to make the tax gap measurements more reliable and useful in determining an
accurate VCR. Where appropriate, we have provided our recommendations for improvement.

The Reliability of Tax Gap Projections Are Affected by the Age,
Completeness, and Accuracy of the Data
In any discussion about whether a specific VCR goal can be met, the logical starting point would
be an assessment of the data reliability of the measurement. To explore the views of IRS
managers not directly involved in estimating the tax gap, we conducted a survey in which over
1,000 IRS managers expressed their opinions on the importance and reliability of tax gap issues
and related NRP data.4 The following are selected responses to our questions. Additional and
more detailed response information can be found in Appendix IV.




3
 The IRS goal in the 2007 budget is to reach an 85 percent VCR by 2009.
4
 There were 2,075 surveys sent to 2,689 managers and 16 executives. The IRS selected the managers in the Small
Business/Self-Employed and Large and Mid-Size Business Divisions. We received 1,033 responses to the survey.
                                                                                                        Page 3
                Some Concerns Remain About the Overall Confidence That Can
                  Be Placed in Internal Revenue Service Tax Gap Projections



       •   Approximately 95 percent cited the level of voluntary compliance as a major problem
           facing tax administration, believed the IRS should accurately measure it, and agree it
           is important in developing strategies and programs.
       •   Almost one-third of these managers think the IRS has insufficient data on the reasons
           for noncompliance.
       •   Fewer than 60 percent believe the NRP will provide accurate compliance-level
           estimates.
These survey results further clarify the importance of voluntary compliance and the accuracy of
the measures associated with it. Consequently, an analysis of the IRS tax gap projections was
required to determine its accuracy and completeness.
The IRS developed a chart called the tax gap map to graphically depict the gross tax gap for
TY 2001, its components, and their relative sizes. The first iteration of the map was completed
prior to the first phase of the NRP and is shown in Figure 1.




                                                                                          Page 4
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



                            Figure 1: IRS Tax Gap Map – Before the NRP

                                      Tax Gap Map for TY 2001 (in Billions)

                                                          Tax Paid Voluntarily & Timely
                                                                    $1,767.4
  Total Tax
                                                     (Voluntary Compliance Rate: VCR = 85.1%)
  Liability
  $2,078.0                                                                               Enforced
                                                                                                                         Net Tax Gap
                                Gross Tax Gap: $310.6                                   & Other Late
                                                                                         Payments                     (Tax Not Collected)
                           (Noncompliance Rate: NCR = 14.9%)                               $55.4 *                          $255.2


      Nonfiling                                             Underreporting                                                     Underpayment
        $30.1                                                    $248.8                                                             $31.7



                        Individual         Corporation         Employment           Estate                  Excise
                       Income Tax          Income Tax             Tax                Tax                     Tax
                          $148.8
                          $119.6              $29.9              $66.1               $4.0                     ?                   Individual
      Individual
                                                                                                                                 Income Tax
     Income Tax
                                                                                                                                    $19.4
        $28.1
                                                                                                                                 Corporation
     Corporation      Non-Business            Small
                                                                  FICA                                                           Income Tax
     Income Tax         Income             Corporations
         ?
                                                                              Certainty of the Estimates                             $2.3
                         $38.1
                          $30.6            (Under $10M)          $14.3
                                               $4.9                               Actual Amounts
                                                                                                                                 Employment
     Employment            Business           Large         Self-Employment       Good (Recent) Estimates                           Tax
        Tax                 Income         Corporations            Tax                                                              $7.2
         ?                   $65.3
                             $81.2         (Over $10M)            $51.2           Reasonable (Less Current) Estimates
                                              $25.0                                                                                 Estate
                                                                                  Weaker (Dated) Estimates                           Tax
                       Adjustments,
       Estate          Deductions,                           Unemployment                                                            $2.3
        Tax            Exemptions                                             * IRS will continue to collect late payments
                                                                 Tax                                                                Excise
        $2.0                                                                  for TY01 for years to come. This category
                    Dup. TINs     $13.4
                                  $16.7                          $0.6                                                                Tax
                                                                              includes tax paid late by taxpayers without
                      $0.4                                                                                                           $0.5
                                                                              IRS enforcement action. For comparison,
       Excise          Credits $12.8
                               $10.3                                          $24.0B of tax was collected solely through
        Tax                                                                   enforcement in FY2000.
         ?          EITC
                    $8.9
                    $7.8


                                                                                                   IRS NHQ Office of Research • September 9, 2004

   Legend: FICA is Federal Insurance Contributions Act
           Dup TINs are Duplicate Taxpayer Identification Numbers
           EITC is Earned Income Tax Credit
           FY is Fiscal Year
   Source: IRS Office of Research.

The map attributes various certainties to the tax gap estimates representing the IRS’ confidence
in the figures based on the quality and age of the estimates. We discuss the reasonableness of the
certainty categorization in our evaluation of the estimates later in this report.
Subsequent to the NRP, the map was updated with preliminary figures in March 2005. After
refinement of the NRP data, a third iteration was issued in February 2006. Figure 2 shows the
most recent version of the tax gap map.




                                                                                                                                             Page 5
                  Some Concerns Remain About the Overall Confidence That Can
                    Be Placed in Internal Revenue Service Tax Gap Projections



                         Figure 2: IRS Tax Gap Map – After the NRP




Source: IRS Office of Research.

As shown in the preceding tax gap maps, the IRS’ preliminary TY 2001 gross tax gap estimate
for individual, employment, corporate, and other taxes was $310.6 billion with a VCR of
85.1 percent. However, the most recent gross tax gap estimate is $345 billion with a VCR of
83.7 percent based on updates using the NRP data.
In all three compliance areas across the major tax gap segments, there are concerns about
whether the tax gap projections are complete and accurate. Our primary concerns are described
in the areas of nonfiling, underreporting, and estimated payments that result in the difference
between the gross and net tax gaps.

                                                                                          Page 6
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



Nonfiling
In the pre-NRP tax gap map, the IRS estimated the nonfiling gap to be $30.1 billion, which was
comprised of $28.1 billion for individual income tax and $2 billion for estate tax. In
February 2006, this estimate was updated to $25 billion for individual income tax. The
individual estimate was based on data provided by the United States Census Bureau. However,
there are supplemental data that suggest substantial amounts are not included in the estimates
provided in the tax gap map projections. The maps described the nonfiling estimate as
reasonable despite the missing segments of corporate income, employment, and excise taxes.
There are no definite plans to update the estate tax segment or to estimate the corporate,
employment, and excise tax nonfiler segments. These facts suggest the nonfiler estimate is
incomplete and likely inaccurate.
The IRS has shown concerns about the significance of nonfiling in the corporate segment.
Although Headquarters Office of Research officials stated their belief that corporate nonfiling
was not a significant issue because of corporate visibility, in July 2004, researchers in the Small
Business/Self-Employed Division issued a report on business nonfilers recommending an
enhanced system for creating and selecting inventory be designed and implemented.
Subsequently, the Small Business/Self-Employed Division Research office developed a
prototype that matched $4.6 trillion in transactions to over one-half of the business nonfilers for
TY 2002, detecting approximately $1 trillion of apparent taxable income. This fact alone brings
the $27 billion into question and demonstrates the need for more research to better estimate
nonfiling for all tax segments.

Underreporting
The tax gap attributed to underreporting is by far the largest identified portion of the tax gap at
an estimated $285 billion. Yet, this estimate may not be complete since there are at least four
areas that suggest substantial amounts are not included in the tax gap map projections. First, the
business income portion of the individual underreporting tax gap estimate is incomplete without
information from another NRP study that the IRS is undertaking on flowthrough returns5 of
Subchapter S corporations.6 The study will take 2 years to 3 years to complete from its inception
in October 2005, which means information from these audits was not available for the
February 2006 updated TY 2001 tax gap estimates. Over 2.9 million Subchapter S Corporation


5
  These include partnerships and Subchapter S corporations through which individual partners and shareholders,
respectively, derive tax information from those entities. The flowthrough study covers only Subchapter S
corporations and not partnerships. In 1958, Congress established Subchapter S of the Internal Revenue Code that
enables small businesses, including sole proprietorships, to form corporations owned by 10 or fewer shareholders.
Subsequently, the Code was revised to allow as many as 100 shareholders. Electing this form of business
organization, commonly referred to as an S corporation, exempts the profits from corporate taxation and allows the
profits to “pass through” to the shareholders who are then responsible for individual income taxes on the profits.
6
  The study began in October 2005 with audits of TY 2003 returns.
                                                                                                           Page 7
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



returns were filed in TY 2001 with over 5.3 million shareholders reporting $187.7 billion in net
income.
Second, the revised tax gap map lists the underreporting gap at $5 billion for small corporations
and $25 billion for large corporations. These amounts are essentially carryovers from the
previous estimate, including their weaker certainty status, since no new information was
developed. For small corporations, the estimate is based on the 1980 TCMP survey. For large
corporate underreporting, the previous estimates were not based on random TCMP audits but on
operational audit coverage from the mid-1980s. These projections assume constant VCRs, yet
current experience suggests compliance may not be constant. For example, in 2003, a contractor
estimated the yearly tax gap arising from abusive corporate tax shelters alone was between
$11.6 billion and $15.1 billion.7
Third, the revised map similarly categorized as reasonable a $4 billion figure for estate taxes and
provided no estimate for excise taxes, yet the estate tax estimate was not updated during the
current NRP. In addition, there are no firm plans for further studies or updates of these
components.
Finally, in the employment tax component, the weaker combined $15 billion Federal Insurance
Contributions Act and unemployment tax gap figure was also carried over and will not be further
studied. Most of the employment tax component consists of self-employment tax. Yet, like the
business income portion of the individual income tax gap, this too is incomplete without the
flowthrough data.

Payments collected
The IRS’ tax gap maps, both before and after the NRP, list $55 billion as recoveries or enforced
collections and other late payments.8 This figure does not represent an actual amount but is an
estimate projected from historical information and formulas based on what is known about the
amount of collections on accounts over time. However, the actual basis of these formulas seems
to be very limited, as well as dated, since IRS officials stated they were developed “quite some
time ago.” Thus, these formulas most likely do not take into account changes in the IRS’ ability
to collect revenue.
To determine the validity of the potential $55 billion in collections, we requested data on actual
collections to date for TY 2001 by year of collection. These collections have two basic
components: voluntary payments received by the IRS after the due date and payments received
by the IRS as a result of some type of IRS intervention. The IRS responded it does not currently
correlate either type of payment to the applicable tax year. Consequently, the IRS has no means
of determining whether the $55 billion is ever collected. While the IRS is currently working on

7
 The IRS has not developed a new estimate of this figure.
8
 According to one IRS representative, these collections can take up to 10 years because of appeals and court
decisions.
                                                                                                               Page 8
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



developing a table that will separate collections resulting from enforcement actions into the
related tax years, no similar data are being developed for voluntary late payments. Unless the
latter data are categorized, the IRS will be unable to determine actual collections or an accurate
net tax gap.

The methodology can significantly affect the accuracy of the projection
Beyond the concerns about the completeness and accuracy of the current tax gap estimates, there
are additional concerns about the samples and adjustments made to the estimates. Both sampling
and adjustments can have a significant effect on the confidence that can be placed in the
estimates.
The first concern about sampling for the NRP studies is whether the sample sizes would affect
the usefulness, or perhaps accuracy, of the data. Performing the studies depends on limited audit
resources. Office of Research officials described the problem as acute for the current
flowthrough study. The most recent TCMP survey of partnerships, for example, involved a
sample size that was significantly larger than the present normal, or operational, audit coverage
of partnership returns. That sample size was sustainable at the time of the TCMP survey, when
the operational audit program was much larger, but is not feasible now. The same thing was true
of the last TCMP survey of Subchapter S corporation returns. The NRP Office proposed much
smaller sample sizes for its current surveys of flowthroughs, not because the same sample sizes
are no longer needed but because the resources necessary to sustain the required number of
random audits are not available.
Although the IRS Office of Research stated the sample size was not an issue for the individual
income tax study, the size of the calibration sample9 for the individual study was constrained by
fewer resources than what would have been preferred. A consultant’s evaluation of the NRP’s
sample design expressed concern that using the calibration audits to adjust the NRP could
introduce considerable error into the adjusted estimates. An expert we consulted believed the
appropriate size of the original NRP sample was an open question that needs addressing for
future work. Furthermore, as a result of software issues and anomalies in the data, only about
37,000 of the original 46,000 cases in the original sample were used in the most recent tax gap
estimate.
The second factor that affects the tax gap estimates is the use of the multipliers.10 Using
multipliers complicates the confidence in, and precision of, the estimates.


9
  Without the intensive audits that characterized the TCMP, the NRP may obtain less complete information, possibly
resulting in misstatement of tax liabilities. To address this potential bias, the NRP conducted more comprehensive
line-by-line audits of a small calibration sample of 1,683 returns to provide a means of evaluating and, if necessary,
correcting the full sample for this bias. The IRS Office of Research believes the quality level of the NRP is about
the same as that for the TCMP.
10
   Multipliers are essentially methods used to estimate undetected additional taxable income.
                                                                                                              Page 9
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



In summary, considering that much of the information remains dated, the new information is
incomplete in several respects, and methodology differences create challenges, a somewhat
different picture of the tax gap map emerges. We concluded that, despite the significant efforts
undertaken in conducting the individual taxpayer NRP, the IRS still does not have sufficient
information to completely and accurately assess the overall tax gap and the VCR. Although
having new information about TY 2001 individual taxpayers is better when compared to the
much older TY 1988 information from the last TCMP survey, some individual compliance
information remains unknown. Additionally, although individuals comprise the largest segment
of taxpayers and were justifiably studied first, no new information about employment, small
corporate, large corporate, and other compliance segments is available. With no firm plans for
further studies or updates in many areas of the tax gap, both the underreporting tax gap and the
nonfiling gap will indefinitely leave an unfinished picture of the overall tax gap and compliance.

Comparing Tax Gap Estimates to Independent Observations Presents
Difficult Challenges
In an effort to determine whether the tax gap projections developed by the IRS coincide with
estimates developed by independent sources, we attempted to identify other estimates from such
sources. Although some outside studies exist, none provide sufficient information to allow close
comparisons. A few States do a type of tax gap analysis, but most simply compare State taxes to
the IRS’ numbers and use a ratio. A paper by the Organization for Economic Co-operation and
Development11 looked at compliance studies by other countries, but the data were limited to
small and mid-size businesses. The United States is probably the only country in the world that
does an NRP-type study.
One possible source of comparison is the annual Bureau of Economic Analysis estimate of the
difference between its personal income figures and the IRS’ measure of Adjusted Gross Income
(AGI) to derive what is called an AGI Gap. Although the IRS has used this measure in the past
to provide an independent validity check on its unreported income estimates, IRS Office of
Research officials suggested this is a narrow definition of tax noncompliance based, in part, on
IRS estimates. Nonetheless, difficulties in reconciling personal income and AGI components
make the AGI Gap a starting point for further analysis.12 For TY 2001, the Bureau of Economic
Analysis reported an AGI Gap of $834.4 billion.13



11
   Organization for Economic Co-operation and Development Information Note: Compliance Risk Management –
Use of Random Audit Programs, September 2004.
12
   Edgar Feige, Defining And Estimating Underground And Informal Economies: The New Institutional Economics
Approach.
13
   This number is an income gap rather than a tax gap. Thus, it would have to be multiplied by a tax rate to
determine the associated tax gap. Similarly, the $35 billion stated in the following paragraph could be significantly
smaller, depending on whether some of these workers have actual filing obligations.
                                                                                                            Page 10
                      Some Concerns Remain About the Overall Confidence That Can
                        Be Placed in Internal Revenue Service Tax Gap Projections



The private sector has also developed some estimates of the tax gap. For example, in
January 2005, financial analysts calculated the number of illegal immigrants in the United States
at more than double the United States Census Bureau’s estimated 9 million. These
undocumented workers may hold as many as 15 million jobs, with perhaps 5 million collecting
untaxed cash wages, costing the Federal Government an estimated $35 billion yearly.14
While these estimates may not be precisely comparable to the IRS tax gap estimate, they employ
indirect methods of economic measurement. If these estimates are closer to the actual tax gap
than the lower IRS developed estimates, this could have a significant effect on tax policy and tax
administration.

The Range of Additional Collections That Would Be Required to
Achieve Targeted Voluntary Compliance Goals
While we have concerns about the overall reliability of the tax gap projections, the annual
amounts collected that reduce the net tax gap, and the VCR, it is instructive to analyze what
additional amounts the IRS would have had to collect to reach 90 percent voluntary compliance
at different estimated intervals for TY 2001. Figure 3 shows what the range would have been for
TY 2001 based upon the total tax liability for TY 2001 as estimated in February 2006. The IRS
has proposed in the Fiscal Year (FY) 2007 budget that the VCR will be raised from 83.7 percent
to 85 percent by 2009. Accordingly, if the total tax liability remained constant, the IRS would
have to collect, on a voluntary and timely basis, $28 billion more in TY 2009, thus reducing the
gross tax gap to $317 billion. To reach 90 percent voluntary compliance by TY 2010,15 the
amount voluntarily and timely collected for TY 2010 would be an additional $134 billion, thus
reducing the gross tax gap to $211 billion if the total tax liability remained constant.




14
     Bear Stearns, The Underground Labor Force Is Rising To The Surface.
15
     This is the amount previously described in this report that was called for by Senator Baucus.
                                                                                                     Page 11
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



                    Figure 3: Additional Voluntary and Timely Payments
                         Required to Reach Specified VCR Levels16


                                      Current Tax Gap Late Payments (Voluntary or Enforced)
                                      Additional Payments Needed if True Tax Gap is $345 Billion

                                                                                                           $189
     VCR 90.0% ECR 92.6%           $55                                         $134
     VCR 89.4% ECR 92.0%           $55                                        $121
     VCR 89.0% ECR 91.6%           $55                                    $113
     VCR 88.4% ECR 91.0%           $55                                  $100
     VCR 88.0% ECR 90.6%           $55                                  $92
     VCR 87.4% ECR 90.0%           $55                             $79
     VCR 87.0% ECR 89.6%           $55                            $70
     VCR 86.4% ECR 89.0%           $55                       $58
     VCR 86.0% ECR 88.6%           $55                      $49
     VCR 85.4% ECR 87.0%           $55                 $37
     VCR 85.0% ECR 87.6%           $55                $28
     VCR 84.4% ECR 87.0%           $55           $16
     VCR 84.0% ECR 86.6%           $55          $7

                           $0   $20      $40    $60     $80        $100       $120    $140   $160   $180   $200
                            Tax Gap Payments (in billions) Needed to Produce Desirable VCR and
                                            Eventual Compliance Rates (ECR)
Source: Treasury Inspector General for Tax Administration.

The Barriers Caused by Budget and Taxpayer Burden Concerns
Hamper Compliance Research
Performing a compliance measurement program is expensive and time consuming. The
estimated cost for performing the TY 2001 individual taxpayer NRP was approximately
$150 million. The IRS Office of Research staff explained that resource constraints are a major


16
   Payment of the $55 billion estimated by the IRS as late or enforced payments does not affect the VCR. However,
it does affect the total amount collected by the IRS. Therefore, we developed the Eventual Compliance Rate term
that shows the effect of these payments when coupled with additional voluntary and timely payments that do affect
the VCR.
                                                                                                           Page 12
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



driver in NRP studies and will affect how often the NRP is updated. From FYs 1995 through
2004, the revenue agent workforce declined by nearly 30 percent while the number of returns
filed grew by over 9 percent. Additionally, operational priorities must be balanced against
research needs. This shortfall in examiner resources makes conducting large-scale research
studies problematic.
The IRS’ budget submission to the Department of the Treasury for FY 2007 requests funding to
support ongoing NRP reporting compliance studies. It requests funding for 268 Full-Time
Equivalents17 and $45.9 million that will include 26 analytical and technical positions to estimate
reporting compliance for new segments of taxpayers (such as S corporations, partnerships, and
other business entities) and to update estimates of reporting compliance for other segments. It
also requests 510 additional revenue agents to conduct reporting compliance research
examinations. The initiative seeks to provide a foundation for conducting compliance studies
and to limit the diversion of resources to research audits from operational priorities. The IRS
Oversight Board18 supports ongoing dedicated funding for compliance research. Unfortunately,
funding for those resources in previous fiscal years did not materialize. It bears repeating that,
without a resource commitment to continually update the studies, the information will continue
to be stale and less useful in improving voluntary compliance.

Learning From Previous Attempts to Reduce the Tax Gap and
Increase Voluntary Compliance
In June 1993, IRS executives met with Department of the Treasury and Office of Management
and Budget officials to discuss key issues for the FY 1995 budget. The issues facing the Federal
Government were similar to the current issues: severe financial constraints and the desire for
good tax administration. Consequently, both the Department of the Treasury and Office of
Management and Budget agreed to work with the IRS on a comprehensive plan to reduce the tax
gap.
The IRS formed a task group that performed an extensive review of the tax gap. The resulting
task force report addressed the major areas of the tax gap and provided recommendations that
addressed multiple approaches to close the tax gap. The report concluded:
     •   Enforcement is the most costly option and delivers only limited revenue.



17
   A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For FY 2005, 1 Full-Time Equivalent was equal to 2,088 hours.
18
   According to the IRS Oversight Board web site (irsoversightboard.treas.gov), it is an “independent body charged
to oversee the IRS in its administration, management, conduct, direction, and supervision of the execution and
application of the internal revenue laws and to provide experience, independence, and stability to the IRS so that it
may move forward in a cogent, focused direction.”
                                                                                                             Page 13
                Some Concerns Remain About the Overall Confidence That Can
                  Be Placed in Internal Revenue Service Tax Gap Projections



   •   Methods to increase voluntary compliance are less costly but more burdensome to
       taxpayers.
   •   Legislative changes are needed as the primary means to increase compliance levels.
   •   The TCMP surveys can be used to develop the types of noncompliance but not the
       causes.
   •   The IRS needs to reevaluate its media and taxpayer education efforts.
   •   The tax gap needs to be treated as a multibillion dollar market, and efforts need to be
       made to capture as much of that market as possible.
   •   The IRS needs to consider making a high-level official responsible for overseeing efforts
       to close all components of the tax gap.
   •   The IRS Strategic Plan needs to be modified to more closely align with the tax gap
       components.
We found it difficult to trace what became of the recommendations in the report. While it is
likely that some of the recommendations were implemented, not all were. From the information
we could obtain, the IRS did receive funding for about 5,000 additional compliance employees in
the FY 1995 budget; however, there was a cut for about the same amount in the following year.
There are likely to be more task groups and studies of the tax gap, although the overall strategies
to reduce the tax gap are already known. The largest areas of noncompliance are also known.
The changes needed could be difficult and add to taxpayer burden. However, 90 percent
voluntary compliance and a significant reduction in the $345 billion annual gross tax gap will not
be achieved without a multifaceted approach that includes the aforementioned conclusions and
recommendations.

Conclusion
The IRS’ ability to achieve 90 percent voluntary compliance by 2010 is a determination that
cannot be made with current information. However, as illustrated in Figure 3 of this report, it is
unlikely that such a massive change in voluntary and timely compliance can be achieved without
significant changes to the entire system of tax administration. Regardless of whether a
90 percent VCR can be achieved, the IRS faces formidable challenges in completely and
accurately estimating the tax gap and finding effective ways to increase voluntary compliance.
Consequently, it is important to tax administration and tax policy decision makers that an
estimate be developed that is within tolerable parameters. Otherwise, inappropriate decisions
can be made on how to address the tax gap. Overall strategies to decrease the tax gap as well as
major areas of noncompliance were identified by the IRS more than a decade ago.
Improvements can be realized; however, sufficient resources need to be provided to ensure tax
administration can effectively ensure compliance with the tax laws.

                                                                                           Page 14
               Some Concerns Remain About the Overall Confidence That Can
                 Be Placed in Internal Revenue Service Tax Gap Projections



Recommendations
Recommendation 1: The Commissioner should continue to conduct NRPs on a regular cycle
for the major segments of the tax gap. To augment the direct measurement approach, the IRS
should devise indirect measurement methods to assist in quantifying the tax gap.
       Management’s Response: The IRS agreed with our recommendation and, subject to
       available resources, will conduct reporting compliance studies on a regular basis for the
       foreseeable future. Management’s goal is to cover all major taxes and taxpayer groups
       over a period of years. Initially, they will focus on the most valuable and productive
       studies and will depend on the IRS Enforcement Committee to prioritize these efforts.
       As one step in estimating the tax gap, they use indirect methods as a check on their
       analytical work. They will continue to do so in the future and will explore the viability of
       incorporating indirect measurement methods where these can improve the precision of
       the resulting estimates. However, this may require an improvement in the quality and
       reliability of indirect methods.
Recommendation 2: The Commissioner should consider establishing a tax gap advisory
panel that includes tax and economic experts to identify ways to better measure voluntary
compliance.
       Management’s Response: The IRS agreed with this recommendation. IRS
       management will look into establishing such an advisory group with the intent of using it
       to validate and improve their estimation methods.




                                                                                           Page 15
                Some Concerns Remain About the Overall Confidence That Can
                  Be Placed in Internal Revenue Service Tax Gap Projections



                                                                                 Appendix I


        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Internal Revenue Service’s (IRS) compliance
efforts and strategies will enable it to achieve a 90 percent Voluntary Compliance Rate by 2010.
To accomplish our objective, we:
I.     Evaluated voluntary compliance and the tax gap to establish the parameters and premises
       of the challenge to achieve a 90 percent Voluntary Compliance Rate by 2010.
       A. Determined the IRS’ meanings for Voluntary Compliance Rate and tax gap.
       B. Determined and analyzed the relationships between specific tax gap components and
          their impact on the gross and net tax gaps and assessed the reliability of the IRS’
          Voluntary Compliance Rate and tax gap estimates.
       C. Determined the potential effect of the National Research Program on improving
          voluntary compliance.
       D. Reviewed IRS and other historical information to determine the continuing challenges
          to improving voluntary compliance.
II.    Determined whether the IRS developed and communicated a viable strategy for
       improving voluntary compliance and reducing the gross tax gap.
       A. Surveyed IRS compliance function executives and managers to determine their
          knowledge and opinions about the tax gap, the IRS’ strategic planning, and the IRS’
          compliance efforts and to solicit their ideas for ways to reduce the tax gap and
          improve voluntary compliance.




                                                                                        Page 16
                Some Concerns Remain About the Overall Confidence That Can
                  Be Placed in Internal Revenue Service Tax Gap Projections



                                                                  Appendix II

                 Major Contributors to This Report

Philip Shropshire, Acting Director, Inspections and Evaluations
Preston Benoit, Audit Manager
Cynthia Dozier, Senior Auditor
Richard Hayes, Senior Auditor
Theodore Lierl, Senior Auditor
Larry Madsen, Senior Auditor
Bill Russell, Senior Auditor
Karen Stafford, Senior Auditor
Robert Weiss, Senior Auditor




                                                                       Page 17
              Some Concerns Remain About the Overall Confidence That Can
                Be Placed in Internal Revenue Service Tax Gap Projections



                                                                    Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Director, Office of Research, Analysis, and Statistics RAS
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                          Page 18
                   Some Concerns Remain About the Overall Confidence That Can
                     Be Placed in Internal Revenue Service Tax Gap Projections



                                                                                                      Appendix IV

                                           Survey Results

This appendix presents detailed information on the results of a survey of 1,033 Internal Revenue
Service (IRS) managers conducted to solicit the views of managers who work closely with the
most significant components of the IRS tax gap. Of the 1,033 managers, 838 identified
themselves as first-line managers, 175 as second-line managers or above, and 20 as executives.
Counting the 1,033 managers by IRS operating divisions, 249 were from the Large and Mid-Size
Business Division and 784 were from the Small Business/Self-Employed Division. Counting the
1,033 managers by IRS function, 642 were involved with the Examination function, 288 were
involved with the Collection function, and 103 listed their function as “other.”

                                                                                              Agree or Disagree
                                                                                              Tend to or Tend to Don't
                                                                                               Agree   Disagree Know
The current level of voluntary compliance is a major problem facing tax administration.         983       50
Current compliance efforts are having an effect on increasing the Voluntary Compliance Rate
                                                                                                707      326
(VCR).
I am confident that changes can be made to significantly improve the VCR.                       800      233
IRS procedural changes could significantly improve the VCR.                                     759      274
IRS regulatory changes could significantly improve the VCR.                                     856      177
Tax law changes could significantly improve the VCR.                                            878      155
The IRS should have an accurate measure and/or estimate of the VCR.                             995       38
The National Research Program (NRP) will provide an accurate estimate of the VCR.               600      433
The IRS successfully measures the effect of compliance programs on voluntary compliance.        454      579
The IRS has sufficient data to determine the major reasons for noncompliance.                   704      329
The IRS accurately measures the items most important to achieving its mission.                  523      510
The IRS mission statement should include the concept of the VCR.                                623      410
The VCR is important when developing IRS compliance strategies and programs.                    979       54
The IRS should develop methods other than the NRP to measure the VCR.                           903      130
The IRS needs to fully understand the reasons for noncompliance.                                958       75
IRS research study results are used in my function to direct efforts at increasing the VCR.     641      392
There are research areas/topics not ongoing or planned that would better identify
                                                                                                737      296
noncompliance.
The strategic planning process enables the IRS to achieve its mission.                          614      262      157
The IRS Strategic Plan for 2005-2009 provides the means and strategies for the IRS to
                                                                                                497      302      234
increase voluntary compliance.
The Strategic Plan provides a clear roadmap for IRS operations for the 5-year period.           595      215      223
Elements of the Strategic Plan are included in my performance standards.                        772       73      188
I am knowledgeable about the goals and objectives of the Strategic Plan.                        836      197
My work decisions are driven by the goals and objectives in the Strategic Plan.                 811      222
My input was requested during the strategic planning process.                                   287      746
I received a copy of the IRS Strategic Plan for 2005-2009.                                      804      229
The Strategic Plan was discussed with me in manager's meetings.                                 721      312




                                                                                                               Page 19
                    Some Concerns Remain About the Overall Confidence That Can
                      Be Placed in Internal Revenue Service Tax Gap Projections



From my experience and observations, the top 5 reasons for noncompliance, in the order of frequency, are: (please
select 5 reasons from the list of 13 common reasons given for noncompliance).
                                                                                         Percent of Respondents
                                                                                                                    Not One
                                                                                                                   of the Top
                                                     Importance Ranking:      1      2       3      4         5
                                                                                                                        5
                                                                                                                    Reasons
Negligence - Willingness to chance some underreporting                      23% 17% 12%             9%    7%           33%
Inability to pay causes taxpayer to not file, underreport, or overstate
                                                                            20% 10%         8%    10%     10%           42%
deductions or credits
Tax law complexity - aware of requirement, but misapplies to tax
                                                                            10%     9%      11%     9%    10%           51%
situation
Income Sheltering - primary motivation is to move assets/income from
                                                                             9%    10% 11%          9%    7%            55%
the ability of courts to locate for liability purposes
Fraud - intention to evade                                                   9%     9%      7%      5%    8%            63%
Form of protest - conscious willingness to not comply because of
disagreement over government policies or actions such as war, social         6%     6%      6%      7%    9%            66%
programs, or similar
Perception of unfairness of tax laws - taxpayer believes others do not
                                                                             5%     9%      8%    11%     11%           56%
pay fair share, so chooses to be noncompliant
Disagrees with the IRS position on laws and regulations - aware of all
                                                                             5%     5%      7%      8%    5%            70%
requirements, simply applies in a position contrary to IRS position
Reliance on practitioners - relied on others' advice without question        4%     8%      10%     8%    8%            62%
Fear of consequences - taxpayer aware of noncompliance but fears the
                                                                             2%     4%      5%      6%    6%            77%
consequences of becoming compliant
Ignorance of requirements - error or omission based on ignorance of
                                                                             2%     9%      6%      8%    8%            68%
law or regulation
Accounting errors - due to omissions, math errors, or lack of records        2%     3%      6%      5%    4%            80%
Illness or tragedy - sickness, disaster, or death of taxpayer or
                                                                             1%     2%      3%      5%    5%            83%
immediate family member
Details may not add to totals due to rounding.

In order of significance, with 1 being the most and 8 the least, please rank the effect of the following factors on the
Voluntary Compliance Rate (use each number only once).
                                                                               Percent of Respondents
                                       Importance Ranking:     1       2       3       4        5       6       7       8
Lack of IRS resources to properly enforce compliance         30% 22% 16% 11%                   8%      6%      6%      3%
Intentional taxpayer underreporting                          26% 17% 18% 12% 10%                       8%      5%      4%
Complexity of the tax system                                 18% 16% 13% 17% 16% 11%                           7%      4%
IRS compliance efforts                                       11% 15% 18% 19% 13% 11%                           8%      3%
                                                              6%     12%     11%     12%      10%       11%       13%    25%
Lack of additional tax laws to help address compliance
Fairness of the tax system                                    5%      8%     12%     11%      18%       22%       16%    9%
Economy                                                       3%      7%      8%     12%      14%       17%       21%    18%
IRS customer service                                          2%      3%      4%      8%      11%       14%       23%    35%
Details may not add to totals due to rounding.




                                                                                                                    Page 20
    Some Concerns Remain About the Overall Confidence That Can
      Be Placed in Internal Revenue Service Tax Gap Projections



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 21
Some Concerns Remain About the Overall Confidence That Can
  Be Placed in Internal Revenue Service Tax Gap Projections




                                                      Page 22
